Department of Homeland Security
   Ofﬁce of Inspector General


             Progress in Addressing Secure Border 

    Initiative Operational Requirements and Constructing 

                  the Southwest Border Fence 





OIG-09-56                                          April 2009
                                                                       Office of Inspector General

                                                                       U.S. Department of Homeland Security
                                                                       Washington, DC 20528




                                      April 15, 2009

                                             Preface


The Department of Homeland Security (DHS) Office of Inspector General (OIG) was established by
the Homeland Security Act of 2002 (Public Law 107-296) by amendment to the Inspector General
Act of 1978. This is one of a series of audit, inspection, and special reports prepared as part of our
oversight responsibilities to promote economy, efficiency, and effectiveness within the department.

This report covers CBP’s progress in constructing the tactical infrastructure needed to meet border
security mission requirements. Specifically, the report discusses CBP’s efforts to develop, refine,
and document the underlying operational needs of the Border Patrol, and as set forth in the Secure
Fence Act of 2006, as amended, to build pedestrian and vehicle fences along the Southwest border of
the United States to guard against illegal entries. The report also addresses related management
improvements, including establishing, staffing, and equipping an acquisition program management
office to oversee tactical infrastructure construction, including fencing. The report is based on
interviews with employees and officials of the Department of Homeland Security, direct
observations, and a review of applicable documents.

The recommendations herein have been developed to the best knowledge available to our office, and
have been discussed in draft with those responsible for implementation. We trust this report will
result in more effective, efficient, and economical operations. We express our appreciation to those
who contributed to the preparation of this report.




                                      Richard L. Skinner 

                                      Inspector General 

Table of Contents/Abbreviations 


Executive Summary ...............................................................................................................................1


Background ............................................................................................................................................2


Results of Audit .....................................................................................................................................4

   Defining Operational Requirements ................................................................................................5

   Recommendation ..........................................................................................................................13

   Management Comments and OIG Analysis ..................................................................................13 


     Challenges to Meeting Fence Construction Year-End Goals ........................................................15 

     Recommendation ..........................................................................................................................19

     Management Comments and OIG Analysis ..................................................................................19 


     Improving Project Management and Oversight.............................................................................20 

     Recommendations .........................................................................................................................22

     Management Comments and OIG Analysis ..................................................................................22 


Appendices
Appendix A:          Purpose, Scope, and Methodology ...............................................................................24 

Appendix B:          Management Comments to the Draft Report ................................................................26 

Appendix C:          Major Contributors to the Report ..................................................................................31

Appendix D:          Report Distribution Management .................................................................................32



Abbreviations
     CBP                 United States Customs and Border Protection 

     DHS                 Department of Homeland Security 

     OIG                 Office of Inspector General 

     PMO                 Program Management Office 

     SBI                 Secure Border Initiative 





                         Progress in Addressing Secure Border Initiative Operational Requirements
                                       and Constructing the Southwest Border Fence
OIG

Department of Homeland Security
Office of Inspector General


Executive Summary
                  Achieving the optimal mix of personnel, technology, and tactical
                  infrastructure is key to the Secure Border Initiative strategy for protecting and
                  controlling the Nation’s borders. We conducted an audit of the United States
                  Customs and Border Protection to determine its progress in addressing Secure
                  Border Initiative requirements and in constructing tactical infrastructure,
                  which includes fencing to secure the Southwest border as mandated by
                  Congress and determined by the Secretary of Homeland Security.

                  Customs and Border Protection has made progress in identifying the Border
                  Patrol’s operational requirements for technology and tactical infrastructure.
                  However, Border Patrol assessments could better document and define
                  operational requirements for tactical infrastructure to ensure that border fence
                  construction is linked to resource decisions and mission performance goals.

                  As of September 30, 2008, Customs and Border Protection had completed
                  about half of the 670 miles of fence that the Secretary determined would be
                  most practical and effective. Although the Secretary waived environmental
                  requirements in April 2008, Customs and Border Protection continues to face
                  several other challenges, such as land acquisition, which has impeded fence
                  construction progress. As a result, Customs and Border Protection did not
                  meet its goal of completing 670 miles of fence by December 31, 2008. CBP
                  informed us that it altered the goal from completing 670 miles of fencing to
                  having 90 to 95 % under construction or under contract by the end of 2008.
                  Also, Customs and Border Protection has not fully staffed its Tactical
                  Infrastructure Program Management Office or fully developed the
                  management information systems used to support this office.

                  We are making four recommendations which, when implemented, should help
                  CBP improve its management of tactical infrastructure fencing construction.
                  CBP concurred with all four recommendations. We incorporated CBP’s
                  response to our recommendations in Appendix B.




             Progress in Addressing Secure Border Initiative Operational Requirements
                           and Constructing the Southwest Border Fence

                                              Page 1
Background
                  The Department of Homeland Security (DHS) has the responsibility to secure
                  and control the Nation’s borders as a means of deterring and preventing
                  terrorists, weapons of mass destruction, and aliens from unlawfully entering
                  the country. Customs and Border Protection’s (CBP) Office of Field
                  Operations inspects and admits people and commerce into the United States at
                  designated ports of entry. Legal border crossings take place only at these
                  ports. CBP’s Office of Border Patrol is responsible for interdicting illegal
                  immigration and maintaining security between the ports along 5,525 miles of
                  land bordering Canada and 1,989 miles bordering Mexico.

                  In 2005, the President established the Secure Border Initiative (SBI), a
                  comprehensive multiyear, multibillion-dollar effort to secure U.S. borders and
                  reduce illegal immigration. Elements of SBI are carried out by several
                  components within DHS. Gaining control of the border is one of the
                  cornerstones of the SBI strategy, which includes the optimal mix of
                  enforcement personnel, technologies, and infrastructure to achieve border
                  control.

                  Different border terrains, climates, and populations require the Border Patrol
                  to use different mixes of personnel, technology, and tactical infrastructure to
                  gain operational control of the border. Border Patrol agents comprise the
                  personnel element of operational control, providing the law enforcement
                  response to intercept pedestrians, contraband, and vehicles illegally crossing
                  into the United States between land ports of entry. The SBInet Technology
                  Program is the portion of SBI that includes video cameras, ground sensors,
                  radar, and computer systems, which are used to detect, identify, classify, and
                  track illegal pedestrian and vehicle crossings. Sensors detect movement at the
                  border and the systems identify if it is a person illegally crossing the border.
                  Illegal crossings are classified by threat level and are responded to by Border
                  Patrol agents. Tactical infrastructure assets include pedestrian and vehicle
                  fences and lighting, used to slow and deter pedestrians and vehicles from
                  illegally crossing the border between ports of entry. It also includes roads and
                  bridges used by Border Patrol agents to patrol and respond to illegal crossings.
                  These three elements are depicted:




             Progress in Addressing Secure Border Initiative Operational Requirements
                           and Constructing the Southwest Border Fence

                                              Page 2
                                         ELEMENTS NEEDED FOR OPERATIONAL
                                             CONTROL OF U.S. BORDERS




                               Personnel                   Technology                  Infrastructure
                               Respond,                      Detects,                     Fencing
                             Confront, and                Identifies, and             Slows and Deters
                             Resolve Illegal                Classifies                Border Crossers
                             Cross Border                Border Crossers              between Ports of
                                Activity                     Threat                        Entry


                         Remote, rural, and urban areas require the Border Patrol to adapt to
                         significantly different operational environments along the international
                         borders. Because remote areas are isolated, not easily accessible, and have
                         very low population density, it could take illegal border crossers hours or days
                         to cross to a U.S. community, allowing the Border Patrol more time to
                         respond. In contrast, entry through rural areas, which are less isolated and
                         more easily accessible with somewhat higher population density, may take
                         minutes or hours, affording less response time. Urban areas are densely
                         populated cities, enabling illegal border crossers to go over the border and
                         disappear into a U.S. community in a matter of minutes unless quickly
                         interdicted.

                         The Secure Fence Act of 2006, as amended1, provides, in part, that DHS shall
                         construct reinforced fencing along the Southwest border where fencing would
                         be most practical and effective. The Act also provides for the installation of
                         physical barriers, roads, and lighting to gain operational control of the
                         Southwest border. For priority areas, the Act directs CBP to complete a
                         number of miles of fencing, as determined by the Secretary, by
                         December 31, 2008. The Secretary determined that 670 miles of fencing is to
                         be constructed by the year-end deadline.

                         In FY 2007, Congress appropriated about $1.5 billion for the SBI program,
                         including $300 million in supplemental appropriations to support the
                         installation of fence, infrastructure, and technology along the border. The
1
  The Secure Fence Act of 2006 (Public Law 109-367) amended Section 102(b) of Public Law 104-208. Subsequently,
the Consolidated Appropriations Act 2008 (Public Law 110-161, Div E, §564) amended Section 102 of Public Law 104­
208.

                   Progress in Addressing Secure Border Initiative Operational Requirements
                                 and Constructing the Southwest Border Fence

                                                      Page 3
                 Department of Homeland Security Appropriations Act, 2007 (Public Law 109­
                 295) provided funding for CBP border security, fencing, infrastructure, and
                 the technology program, but did not identify how DHS was to apportion the
                 funds among the three SBI program elements. The appropriation for SBI for
                 FY 2008 was $1.225 billion for fencing, infrastructure, and technology. The
                 department received an additional $775 million for fencing, infrastructure, and
                 technology for FY 2009. In addition, The American Recovery and
                 Reinvestment Act of 2009 (Public Law 111-5) provides $100 million for
                 border technology along the Southwest border.


Results of Audit
                 CBP has made progress in identifying and meeting the Border Patrol’s
                 operational requirements for technology and tactical infrastructure.
                 Specifically, CBP has:

                     �	 Defined the Border Patrol’s operational requirements for the SBInet
                        Technology Program and is refining them to set performance
                        objectives for SBI technology. This helps ensure that resources are
                        applied consistently to meet operational needs.
                     �	 Identified its SBI tactical infrastructure fencing requirements through
                        the Border Patrol’s assessment process. However, improvements are
                        needed in the assessment documentation to show that the Border
                        Patrol’s tactical infrastructure needs are being met.
                     �	 Developed fencing performance requirements and tested and assessed
                        these designs through the Fence Lab project. This testing program
                        provided cost-effective fence designs that could be rapidly replicated
                        to meet the Border Patrol’s requirement to slow and deter vehicles and
                        pedestrians from crossing the border between the ports of entry.

                 CBP has made progress in constructing fencing along the Southwest border,
                 but faced several challenges that prevented CBP from meeting its goal of
                 completing 670 miles of fence by December 31, 2008. In addition, CBP’s
                 project management office is not at full capacity. Specifically, CBP has:

                     �	 Completed construction of more than 357 miles of vehicle and
                        pedestrian fence along the Southwest border as of September 30, 2008.
                        Although the Secretary waived environmental requirements in April
                        2008, CBP continued to face challenges such as land acquisition and
                        therefore in September 2008 was just over halfway to completing its
                        fencing goal for that year.


            Progress in Addressing Secure Border Initiative Operational Requirements
                          and Constructing the Southwest Border Fence

                                             Page 4
                               �	 Established the SBI Tactical Infrastructure Program Management
                                  Office and a monitoring system to address the Border Patrol’s tactical
                                  infrastructure needs. However, the office is not fully staffed and the
                                  system to monitor progress and cost has not been fully developed and
                                  implemented.

                           Although the goal of completing 670 miles of fence by December 31, 2008,
                           was not accomplished, the Secretary remained committed to having 90 to
                           95 % of planned fencing either under construction or under contract in 2008.

          Defining Operational Requirements
                           CBP is taking steps to better define the Border Patrol’s operational
                           requirements for both technology and tactical infrastructure by:

                               �	 Clarifying intended outcomes for SBInet technology products and
                                  systems to ensure that their operational needs are met;
                               �	 Defining SBI operational requirements for tactical infrastructure; and
                               �	 Using the results from the Fence Lab project to assess select fence
                                  designs.

                           These fence designs better ensure that the Border Patrol’s mission needs will
                           be effectively achieved. However, CBP has not satisfactorily documented the
                           operational requirements for tactical infrastructure fencing, making it difficult
                           to determine whether actual construction of fencing is meeting mission needs
                           for operational control of the border.

                           Refining Operational Requirements for Technology

                           In our November 2006 Risk Management Advisory Report,2 we reported that
                           operational requirements were not fully defined and documented at the start of
                           the SBInet program. Specifically, the department needed to define and
                           document the underlying operational requirements for SBInet technology, and
                           translate the Border Patrol’s mission needs into performance measures and
                           objectives for the program.

                           Operational requirements should be clearly identified, fully defined, and
                           properly documented in terms of key performance parameters, with thresholds
                           and objectives set. Program managers are to ensure that program plans and
                           resources are optimally directed at achieving the key performance parameters.

2
    Risk Management Advisory for the SBInet Program Initiation, OIG-07-07, November 2006.



                      Progress in Addressing Secure Border Initiative Operational Requirements
                                    and Constructing the Southwest Border Fence

                                                        Page 5
     Accordingly, an Operational Requirements Document is used for any major
     acquisition program to set performance objectives and threshold parameters
     for the proposed concept or system, in this case SBInet. The operational users
     prepare this document as guidance to acquisition program managers on
     making cost, schedule, and technical performance trade-offs. Also, the
     Operational Requirements Document may be used to set assumptions for
     program plans, schedules, and cost estimates.

     The Operational Requirements Document is necessary for effectively
     establishing the program’s performance management systems. The
     Operational Requirements Document is key to establishing an Acquisition
     Program Baseline and formally documenting the program’s critical cost,
     schedule, and performance parameters, expressed in measurable, quantitative
     terms that must be met to accomplish the program’s goals. By tracking and
     measuring actual program performance against this formal baseline, the
     program’s management is alerted to potential problems, such as cost growth
     or requirements creep, and is able to take early corrective action.

     Since our 2006 report, CBP has developed and published an Operational
     Requirements Document to establish the operational requirements and
     performance objectives to drive SBInet plans. However, CBP is currently
     adjusting the Operational Requirements Document to provide greater clarity
     and detail about intended outcomes.

     Documenting Operational Requirements for Tactical Infrastructure

     CBP’s Office of Border Patrol developed and implemented a needs
     assessment process to link resources to mission performance. This process is
     being used to identify Border Patrol’s operational requirements for tactical
     infrastructure fencing. However, this process did not clearly document and
     define tactical infrastructure fencing needs; therefore, it is difficult to link
     actual fence construction to the needs that the Border Patrol originally
     identified to accomplish its mission.

     Although the needs assessment process did not provide a clear link to actual
     and planned fence construction, supplemental explanations by the Border
     Patrol and our observations showed that resources were being applied to bona
     fide needs. The Border Patrol is also taking steps to improve its assessment
     process by identifying and incorporating SBInet technology requirements
     when assessing tactical infrastructure needs. The technology overlay with
     tactical infrastructure should provide a more comprehensive and effective
     needs assessment by better identifying and resolving any gaps in border
     coverage.

Progress in Addressing Secure Border Initiative Operational Requirements
              and Constructing the Southwest Border Fence

                                 Page 6
                           The Border Patrol has established processes to link resource decisions to
                           mission goals to achieve border control. As part of its annual budgeting
                           process, the Border Patrol performs operational needs assessments in each
                           sector.3 Sector-by-sector assessments describe the threat environment and
                           identify the needs to achieve operational control of portions of the border.
                           Operational control is achieved in a tactical zone when the level of border
                           security (controlled, managed, monitored) in that specific zone matches the
                           level of threat or risk, either high, medium, or low. Level of threat is
                           measured by the presence or need for detection and interdiction resources to
                           fully implement the sector’s border control strategy and tactics. The Border
                           Patrol sectors identify where it would be most practical and effective to build
                           fencing to gain operational control of their sections of the border. The sectors
                           then document the tactical infrastructure needs in a management information
                           system known as the Operational Requirements Based Budget Program.

                           During our review of the 2007 Operational Requirements Based Budget
                           Program documents, we could not reconcile Border Patrol’s fencing
                           requirements as set forth in the documents with the miles of fence constructed
                           or to projects planned.

                           According to Border Patrol officials, their assessments identified
                           approximately 225 miles of pedestrian fence and 170 miles of vehicle fence
                           needed along the Southwest border. However, the location of the miles was
                           not always identified in its Operational Requirements Based Budget Program
                           plans, or was not sufficiently specified in the documents. Therefore, we could
                           not determine whether the actual fencing planned or under construction
                           corresponded to fencing needs as identified in Border Patrol assessments.
                           Clearer links between the detailed needs assessments for each sector and fence
                           construction plans are needed to ensure resources are most effectively applied.

                           Although fencing generally was not properly documented, no instances of
                           unneeded fencing came to our attention during our site visits. At the sites
                           visited, Border Patrol agents readily gave us reasonable explanations that
                           demonstrated the need for a fence in a particular area, based on how quickly a
                           border crosser could escape when not apprehended. Consistently, Border
                           Patrol agents said that existing fencing or fencing under construction was
                           required to accomplish their mission.


3
 A sector is a Border Patrol field office’s geographic operational area of responsibility. Office of Border Patrol has 20
sectors that cover the geographic areas of the United States and Puerto Rico. Each sector is headed by a sector
headquarters office.



                     Progress in Addressing Secure Border Initiative Operational Requirements
                                   and Constructing the Southwest Border Fence

                                                           Page 7
     The Operational Requirements Based Budget Program system has been
     evolving since 2005, but Border Patrol lacks a standard procedure on how to
     document and account for the miles of fencing being constructed. The Border
     Patrol continues to refine its operational needs assessment process with each
     annual cycle.

     Starting in FY 2007, the Operational Requirements Based Budget Program
     process added a web-based Tactical Infrastructure Module. The Border Patrol
     uses the module to input the location, type, and miles of tactical infrastructure
     needed. However, we compared but could not reconcile data regarding
     location, type, and miles of fencing in the FY 2007 Operational Requirements
     Based Budget Program documents with data in the 2007 Tactical
     Infrastructure Modules.

     Border Patrol officials also said that information on planned SBInet
     technology products and systems, previously left out of Operational
     Requirements Based Budget Program documents is to be included. Knowing
     the technology that is planned for an area should allow Border Patrol sectors
     to identify any gaps in technology and tactical infrastructure when performing
     annual operational needs assessments. Border Patrol officials said that three
     sectors (Tucson, Yuma, and El Paso) out of the nine Southwest sectors are
     starting to evaluate both technology and tactical infrastructure, and the
     remaining six sectors (San Diego, El Centro, Marfa, Rio Grande Valley,
     Laredo, and Del Rio) will be added later. This expanded assessment should
     improve CBP’s ability to ensure that resources are applied to achieve
     operational control of the border through a proper mix of technology and
     tactical infrastructure.




Progress in Addressing Secure Border Initiative Operational Requirements
              and Constructing the Southwest Border Fence

                                 Page 8
     Figure 1: DHS-OIG Auditors Examining the Southwest Border Fence
     with Border Patrol Agents




     Setting and Testing Fence Performance Requirements and Designs

     Through the Fence Lab project, CBP tested and assessed the performance
     criteria for fence designs to ensure they satisfy Border Patrol operational
     requirements. This testing program provides assurance that fencing
     constructed by the SBI program meets the Border Patrol’s needs.

     In 2007, CBP established Fence Lab, a research and development project to
     test, evaluate, and provide a variety of fence design solutions that meet the
     Border Patrol’s fencing needs. The Boeing Company was awarded a task
     order to test and evaluate fencing solutions. Boeing collaborated with Sandia
     National Laboratories and the Texas Transportation Institute to test nine
     prototype concepts of fencing at the institute’s highway barriers testing
     facilities at Texas A&M University in College Station, Texas. Experienced
     Border Patrol agents participated in the Fence Lab project to present user
     concerns, monitor tests, and evaluate the operational effectiveness of the
     alternative fence designs.




Progress in Addressing Secure Border Initiative Operational Requirements
              and Constructing the Southwest Border Fence

                                 Page 9
     Figure 2: Example of a Pedestrian Fence Design




     The Fence Lab project assessed prospective designs for both pedestrian and
     vehicle fencing. Pedestrian fence designs include a steel picket-style fence set
     in concrete and a post-and-rail fence that has double layers of welded wire
     mesh mounted on steel columns or rails. Vehicle fence designs include
     vehicle bollards, which typically are steel posts inserted into a concrete base
     and spaced to allow foot and animal traffic but not vehicular traffic, and
     Normandy barriers, which are steel beams usually made of welded train rails.

     Through Fence Lab, CBP assessed performance criteria for border fencing.
     For example, one criterion is that the fence must disable a 10,000-pound
     vehicle traveling at 40 miles per hour. One fence design that met this criterion
     is the anchored-rail-barrier design, which consists of steel posts set in concrete
     with train rails running across the posts. Fence Lab conducted a test where a
     vehicle traveling 40 miles per hour, loaded with 10,000 pounds of cargo, was
     stopped and disabled when it crashed into this fence.




Progress in Addressing Secure Border Initiative Operational Requirements
              and Constructing the Southwest Border Fence

                                Page 10
                          Figure 3: Example of a Vehicle Fence Design




                          Fence Lab used this criterion to test six commercial and three government-
                          designed fences. Additional criteria include the following:

                               �	 Pedestrian fence must not be easily climbed over or penetrated by a
                                  pedestrian.
                               �	 One must be able to see through the fence with the human eye.
                               �	 The fence must be applicable to desert and open range4 environments.

                          Other considerations for evaluating fence designs included fence construction
                          cost, maintenance ease, time needed to repair fence sections, and whether the
                          materials or parts used were readily available.

                          The Fence Lab created a basis for a Fence Toolbox, which provides a variety
                          of standardized fence designs that can be customized for border use, including
                          three pedestrian fence designs, two vehicle fence designs, and three

4
 An open range environment is land where livestock can legally run free and ranchers do not provide fencing to protect
adjacent private land.



                    Progress in Addressing Secure Border Initiative Operational Requirements
                                  and Constructing the Southwest Border Fence

                                                        Page 11
     combination pedestrian/vehicle fence designs to deter both vehicles and
     pedestrians. Much of the fencing currently planned for the Southwest border
     is pedestrian/vehicle fencing that is designed to deter or slow pedestrians and
     also deter or disable vehicles attempting to cross the border illegally.

     Figure 4: Fence Crash Test at Fence Lab




Progress in Addressing Secure Border Initiative Operational Requirements
              and Constructing the Southwest Border Fence

                                Page 12
           Figure 5: A Sample of Pedestrian/Vehicle Fence Design




Recommendation
           We recommend that the Commissioner, U.S. Customs and Border Protection:

           Recommendation #1: Require the Border Patrol to provide consistent and
           specific information in documenting its operational requirements for tactical
           infrastructure so that actual border fence construction can be linked to the
           Border Patrol’s mission needs for operational control.

Management Comments and OIG Analysis
           CBP provided written comments, including technical comments, on our draft
           report. We addressed the technical comments, as appropriate, throughout the
           report. Below is a summary of CBP’s written response to the report’s first
           recommendation and our analysis. A copy of CBP’s response and a summary
           of its plans and progress for addressing the recommendations are included in
           Appendix B.




      Progress in Addressing Secure Border Initiative Operational Requirements
                    and Constructing the Southwest Border Fence

                                      Page 13
     CBP’s Comments to Recommendation #1:

     CBP concurred with the recommendation to better document its tactical
     infrastructure requirements and provided a due date of December 31, 2009.
     The Office of Border Patrol has been continually making internal
     improvements to the tactical infrastructure requirement gathering process. In
     May 2008, the Office of Border Patrol augmented the Operational
     Requirements Based Budget Process assessment process by creating an
     analysis of alternatives for the proposed fencing segments. It also developed
     the tactical infrastructure module to record project status. The Office of
     Border Patrol plans to automate the process by developing an analysis of
     alternatives component within the web-based Operational Requirements
     Based Budget tactical infrastructure module. Infrastructure projects will be
     tracked by the type of infrastructure, location, number of miles/area covered,
     status, and the construction start and end dates. Once fully implemented, the
     analysis of alternatives module will become the means for identifying
     requirements, for reviewing operational suitability, and for approving funding
     for each infrastructure project.

     In addition, the tactical infrastructure module will be enhanced to record the
     status of partially completed projects and to update these projects with
     detailed information on how much remains to be completed. Infrastructure
     completed at the end of each year will be reconciled with the type, amount,
     and location of the project at the start of the new fiscal year.

     The analysis of alternatives module should be fully implemented and the
     tactical infrastructure module upgraded by December 31, 2009, contingent
     upon the availability of funds. The Office of Border Patrol believes that these
     improvements will significantly improve accountability and strengthen the
     reconciliation process.


     OIG Analysis: We consider CBP’s comments responsive to the
     recommendation, which is resolved and open pending full implementation of
     the analysis of alternatives module and tactical infrastructure module
     upgrades.




Progress in Addressing Secure Border Initiative Operational Requirements
              and Constructing the Southwest Border Fence

                                Page 14
Challenges to Meeting Fence Construction Year-End Goals
                           In August of 2007, DHS committed to having 370 miles of pedestrian fence
                           and 300 miles of vehicle fence, a total of 670 miles of fence, completed by
                           December 31, 2008. Despite the progress made during the past few years, as
                           of September 2008, CBP was about halfway to fulfilling the Secretary’s
                           commitment. Table 1 below outlines the cumulative progress that CBP has
                           made toward meeting its goal as stated in 2007. CBP achieved this progress
                           primarily in areas where environmental and real estate issues did not cause
                           significant delay. Other challenges that continue to hinder progress involve
                           land acquisition and demand for fence materials. CBP provided initial
                           estimates that fence construction costs could increase by about four times due
                           to use of commercial labor instead of military labor.

                           Table 1: Cumulative Fence Construction Progress

                                           Cumulative Miles of Fence Constructed
                                                                                                % of
                           Fence Type        As of            As of              As of         Target Target for
                                                                                                                5
                                            9/30/06          9/30/07            9/30/08       Completed 12/31/08
                                                                                               9/30/08
                          Pedestrian           82.4           154.7              203.7          55%        370
                          Vehicle              57.0           109.5              153.7          51%        300
                          Total               139.4           264.2              357.4          53%        670


                           Difficulties in Acquiring Site Access or Purchasing Land

                           Gaining access rights and acquiring non-federal property has delayed the
                           completion of fence construction and may increase the cost beyond available
                           funding. Of the 225 miles of pedestrian fence designated for Project PF-225,
                           122 miles were initially identified as involving non-federal land. Prior to
                           building fence, CBP needed to gain access rights and acquire land for
                           constructing the fence. CBP acquired 180-day temporary rights of entry6 for
                           all miles of the non-federal land through voluntary signature or
                           condemnation.7 This process caused delays due to prolonged litigation,


5
  The DHS Secretary’s goal, as stated in August of 2007. 

6
  A right of entry gives the contractor the right to enter another person’s real property without committing trespass. 

7
  Condemnation is the process of taking private property for public use through the power of eminent domain. When 

private property is taken by the government, the owner is entitled to receive compensation.




                     Progress in Addressing Secure Border Initiative Operational Requirements
                                   and Constructing the Southwest Border Fence

                                                          Page 15
                          primarily in U.S. District Court, Southern District of Texas, which was not
                          completed until May 22, 2008.

                          Acquiring real property from non-federal owners is a costly, time-consuming
                          process requiring negotiations and sometimes condemnation. For example
                          one landowner in New Mexico refused to allow CBP to acquire his land for
                          the fence. The land ownership predated the Roosevelt easement8 that provides
                          the federal government with a 60-foot border right-of-way. As a result,
                          construction of fencing was delayed and a 1.2-mile gap in the fence existed
                          for a time in this area. CBP later acquired this land through a negotiated
                          settlement.

                          A number of processes need to be completed before acquiring the land,
                          including:

                          �	 Surveying and investigative activities, such as site contamination or
                             cultural surveys, that may require follow-up activities;
                          �	 Negotiating purchases and voluntary sales from more than 480
                             landowners;
                          �	 Potentially relocating owners, as appraisers may rule that an owner must
                             be relocated due to the impact of the fence;
                          �	 Filing condemnation cases for construction rights where ownership cannot
                             be established because the title is cloudy and cannot transfer until cleared
                             (more than 300 such cases are predicted in Texas);
                          �	 Filing condemnation cases for construction rights where an agreeable
                             selling price cannot be reached through negotiations; and
                          �	 Determining final condemnation costs, as courts may award considerably
                             more than the government’s appraised value.

                          Additional real estate issues involve ensuring access roads and staging areas
                          for materials, and obtaining written permission from the International
                          Boundary and Water Commission to construct fences in selected areas in
                          Texas.

                          In response to our draft report, CBP officials stated that as of October 2008
                          the non-federal land miles had been reduced from 122 miles to 45 miles. The
                          mileage was reduced because detailed surveys refined the estimates, and fence
                          segments were reprioritized for future years’ construction, or realigned to
                          different locations. As of January 22, 2009, 33 of the 45 miles had been
8
 In 1907, President Theodore Roosevelt reserved a 60-foot strip along the international boundary with Mexico for the
United States to maintain the area free from obstruction as a protection against the smuggling of goods between the
United States and Mexico. However, the proclamation applied only to publicly owned lands in the State of California
and the Territories of Arizona and New Mexico; privately owned lands in those areas were exempt.

                    Progress in Addressing Secure Border Initiative Operational Requirements
                                  and Constructing the Southwest Border Fence

                                                        Page 16
     acquired either through Federal Court Orders, purchase, or voluntary Rights of
     Entry for Construction. The remaining miles are in active condemnation.

     Environmental Considerations

     CBP is required to meet environmental requirements in constructing fencing
     and vehicle barriers unless they are waived by the Secretary of Homeland
     Security. CBP has normally performed environmental impact assessments for
     project areas but the Secretary has exercised his authority to waive the
     requirements in 5 instances to expedite construction along the Southwest
     border.

     A substantial amount of time and effort is required to conduct environmental
     impact assessments prior to construction. These assessments determine the
     potential impacts on a range of issues, including geologic resources (soils and
     seismicity), biological resources (vegetation, wildlife, and threatened and
     endangered species), cultural resources (archaeological and historic sites),
     water resources (rivers, streams, U.S. waters, and wetlands), social and
     economic profiles, land use of the area, air quality, and noise. The
     environmental requirements are included in the National Environmental
     Policy Act (42usc4321)and other laws involving extensive public and federal
     agency participation.

     Although the Secretary of Homeland Security has exercised his authority to
     waive environmental impact assessments in 5 instances, a waiver can be
     challenged in court. Further, once an environmental impact assessment is
     completed, there is a potential for lawsuits by environmental interest groups,
     thereby slowing or stopping project construction. For example, on October 5,
     2007, the Defenders of Wildlife and the Sierra Club filed a lawsuit seeking to
     keep DHS from carrying out road-building activities in the San Pedro
     Riparian National Conservation Area, located in southeastern Arizona. On
     October 10, 2007, the district court judge issued a temporary restraining order
     halting fence construction activities in the conservation area and ruling that
     relevant federal agencies had failed to carry out an environmental assessment
     as legally required. However, on October 26, 2007, the Secretary exercised
     his waiver authority over the legal requirements to ensure the expeditious
     construction of fence and roads through the conservation area. This enabled
     DHS to resume fence construction.

     Defenders of Wildlife and the Sierra Club subsequently filed an amended
     complaint on November 1, 2007, challenging the constitutionality of DHS’
     waiver authority. On June 24, 2008, the Supreme Court rejected the challenge



Progress in Addressing Secure Border Initiative Operational Requirements
              and Constructing the Southwest Border Fence

                                Page 17
     without comment. Nonetheless, delays such as this can adversely impact the
     schedule and cost of fence projects.

     On April 1, 2008, the Secretary of Homeland Security signed an
     environmental waiver for the Southwest Border. Although the Secretary’s
     waiver means that CBP no longer has any specific legal obligations under
     various environmental laws and regulations, CBP is committed to proceeding
     in an environmentally sensitive manner and working closely with the
     appropriate agencies to minimize any adverse impacts on the environment,
     wildlife, and historic and cultural resources. According to CBP, even though
     the waiver authority was invoked, it is using the same standards and
     guidelines to evaluate and mitigate potential environmental impacts.

     Increased Costs for Construction Materials and Labor

     The significant amount of materials that will be used in fence construction and
     the use of commercial versus military labor increased fence construction costs
     for CBP. CBP took action to ensure materials would be available and lock in
     steel prices by obtaining a supply and supply-chain management support
     system for fence construction.

     While executing fence projects in 2007, CBP learned that the commercial
     market demand for steel-based materials and fabrication was far greater than
     anticipated and that transportation of fence supplies to remote project sites
     required even more extensive coordination. Hence, in January 2008, CBP
     awarded Boeing a supply and supply-chain management task order to
     purchase steel and other construction materials to support and facilitate the
     successful execution of its pedestrian and vehicle fence projects. The
     objective of the supply and supply-chain management support system is to
     ensure that sufficient quantities of construction materials are readily available
     to meet the fence construction needs and schedules along the Southwest
     border. CBP anticipated that the supply and supply-chain management
     system would minimize transportation times and costs, along with storage
     costs, and result in cost savings to the government.

     Similarly, CBP’s use of commercial labor in lieu of military labor to construct
     fencing was an effort to improve timeliness, but it increased project costs.
     CBP did not use military labor because military units can be reassigned to
     other duties, which causes indefinite delays. According to CBP, it worked to
     mitigate potential risks and minimize added costs. However, due to the
     statutory requirement to complete about 670 miles of fence by the end of
     calendar year 2008, CBP placed a high priority on avoiding project delays.



Progress in Addressing Secure Border Initiative Operational Requirements
              and Constructing the Southwest Border Fence

                                Page 18
      In February 2008, CBP provided examples of estimated pedestrian fencing
      costs, ranging from $3.6 million to $4.5 million per mile for commercial
      construction and from $880 thousand to $1 million per mile using the military.
      At that time, CBP did not have a breakout of vehicle fence costs, as those
      projects were a mix of both military and commercial construction. As of
      November 2008, the reported estimated cost of fencing had significantly
      increased: CBP estimated an average cost of $6.5 million per mile for
      pedestrian fencing, and $1.7 million per mile for vehicle fencing.

      On September 10, 2008, CBP testified before the U.S. House of
      Representatives Committee on Homeland Security that escalating construction
      costs coupled with competition for construction labor, equipment, and
      materials have resulted in significant fence construction cost increases. CBP
      stated that concerns about the trend of escalating fence construction costs
      made it prudent to purchase long-lead structural steel in advance. CBP stated
      that by this action it had locked in fixed prices of some materials and saved
      the government between $63 million and $100 million.

      The advance purchase of materials under the supply and supply-chain
      management task order to control costs and maintain schedule appears to have
      been prudent, especially for reducing schedule risks. However, commodity
      prices are volatile and recent steel industry trade publications report steel price
      decreases under current and projected global economic conditions. Therefore,
      advance purchases should be closely monitored to avoid excess inventories in
      the face of declining prices.

Recommendation
      We recommend that the Commissioner, U.S. Customs and Border Protection:

      Recommendation #2: Require CBP to evaluate the supply and supply-chain
      management process to ensure it has performed as expected and consider the
      impact of market trends on cost and acquisition of fencing materials in future
      projects.

Management Comments and OIG Analysis

      CBP’s Comments to Recommendation #2:

      CBP concurred with the recommendation to evaluate the supply-chain
      management process for future projects and provided a due date of
      June 30, 2009. CBP noted that the Tactical Infrastructure Program



 Progress in Addressing Secure Border Initiative Operational Requirements
               and Constructing the Southwest Border Fence

                                 Page 19
                           Management Office monitored the supply and supply chain management
                           contract throughout the fence construction process. This office has not
                           conducted an analysis of cost of fencing materials for ongoing FY 2008
                           projects since fencing materials had already been purchased as long lead
                           items. Currently, there are no new fence construction projects. However,
                           fencing materials information from completed projects will be used to
                           evaluate the impact of market trends on costs and acquisition of materials for
                           the new projects.


                           OIG Analysis: We consider CBP’s comments responsive to the
                           recommendation, which is resolved and open pending our receipt of CBP’s
                           evaluation of the supply and supply-chain management process for any new
                           fence construction projects.


Improving Project Management and Oversight
                           CBP has made organizational changes and implemented various practices to
                           improve its ability to manage its tactical infrastructure projects. CBP created
                           a new Program Management Office (PMO) to oversee all tactical
                           infrastructure projects for border security. CBP is also developing and
                           implementing an information system to monitor fence construction and costs.
                           However, CBP needs to fully staff the new PMO and complete the monitoring
                           system to ensure adequate management and oversight of the tactical
                           infrastructure projects.

                           Program Management Office for Tactical Infrastructure

                           In November 2006, we reported9 that CBP did not have the organizational
                           capacity to oversee, manage, and execute the SBInet program. Although CBP
                           has taken actions to build-up its management capabilities regarding the
                           tactical infrastructure program, it still has not fully staffed the office to ensure
                           proper oversight, management, and execution of the program, making it more
                           difficult to achieve CBP’s goals. The foremost action that CBP took was to
                           create a new program office responsible for carrying out all tactical
                           infrastructure projects under SBI.

                           The new program office manages the SBI Tactical Infrastructure Program and
                           is responsible for two major construction projects on the U.S. Southwest
                           border: Project PF-225 for constructing pedestrian fence and Project VF-300

9
    Risk Management Advisory for the SBInet Program Initiation, OIG-07-07, November 2006.

                      Progress in Addressing Secure Border Initiative Operational Requirements
                                    and Constructing the Southwest Border Fence

                                                       Page 20
     for constructing vehicle fence. Additionally, the Tactical Infrastructure
     Program Office has an interagency agreement with the U.S. Army Corps of
     Engineers to assist the office with fence construction, real estate acquisition,
     and environmental issues.

     Although CBP created the Tactical Infrastructure PMO in 2007, it has not
     fully staffed the office. As of March 2008, CBP had filled only 13 of the
     office’s 69 positions with 3 positions filled by government employees and 10
     by contractors. Open key positions include the directors for project
     management; operations and reporting; integrated logistics support; finance
     and program control; and environmental real estate and engineering
     management.

     As of September 2008, the PMO was operating with 32 positions, including
     two additional key positions: the director for project management and the
     director of operations. CBP had increased onboard staffing in the Tactical
     Infrastructure Program Management Office to 12 government employees and
     20 contractors. In October 2008, new SBI executive leadership began
     reviewing the program’s organization and structure and was uncertain whether
     the plan as of March 2008 for 69 staff positions was appropriate.

     However, as long as the other key positions are not filled with government
     employees, the risk increases that CBP will not have sufficient capacity to
     properly manage and oversee fence construction projects. For example, the
     director of finance and program control would typically perform business
     management functions, including schedule management, earned value
     analysis, cost estimate review, cost control, financial tracking, and invoice
     review and processing. The absence of this director increases the risk that
     projects will overrun deadlines and cost estimates. An engineering manager
     would ensure that project engineering and construction planning and
     execution are completed by the U.S. Army Corps of Engineers in a timely
     fashion and meet quality standards. The absence of an engineering manager
     poses increased risk to the quality and integrity of the constructed fence.

     Tactical Infrastructure Monitoring System

     Although not complete, CBP implemented a monitoring system to improve
     fence construction oversight. CBP is continuing to develop modules in this
     tactical infrastructure database and an integrated project management tool to
     allow the program office to monitor fence construction progress. For
     example, as of September 2008, the system showed the progress of PF-225,
     including the number of miles of fencing planned, earned value, and costs. It



Progress in Addressing Secure Border Initiative Operational Requirements
              and Constructing the Southwest Border Fence

                                Page 21
      also tracked and showed the status of real estate parcels, including acquisition,
      rights of entry, and names of landowners. Project managers are to update the
      information in the system weekly for each segment of the fence project. By
      providing timely and accurate information on construction progress to
      decision makers and program managers, the tactical infrastructure monitoring
      system should provide better management of cost and schedule, as well as
      fulfillment of Border Patrol needs to attain operational control of selected
      areas.

      In June 2008, CBP was testing the system and plans to add additional
      functionality. CBP officials said the system must have corrected geospatial
      information system linkages, updated capabilities for tracking vehicle fence,
      and additional real estate database functionality. In February 2009, CBP
      advised us that it had corrected the geospatial information system linkages and
      full capabilities for tracking vehicle fence. In addition, CBP added new
      capabilities to the system for tracking the progress of projects under
      construction, enhanced query capabilities, and added a new risk management
      module and a supply chain management module.

Recommendations
      We recommend that the Commissioner, U.S. Customs and Border Protection:

      Recommendation #3: Develop and implement a plan of action with specific
      task assignments and schedule milestones for staffing the SBI Tactical
      Infrastructure Program Management Office to ensure proper administration of
      all tactical infrastructure program management functions.

      Recommendation #4: Require CBP to refine and complete its tactical
      infrastructure monitoring system capabilities to ensure adequate oversight of
      performance progress and cost data.

Management Comments and OIG Analysis

      CBP’s Comments to Recommendation #3:

      CBP concurred with the recommendation to provide an action plan for
      staffing and organization structure and provided a due date of December 31,
      2009. CBP stated that SBI tactical infrastructure is currently staffed at a level
      appropriate to meet and manage SBI FY 2009 priorities. Since the completion
      of the audit, the SBI program office has redesigned and right-sized the overall
      SBI organization, to include the SBI Tactical Infrastructure Program
      Management Office. The detailed reorganization is just starting, but it does

 Progress in Addressing Secure Border Initiative Operational Requirements
               and Constructing the Southwest Border Fence

                                 Page 22
     reflect a reduction in the number of personnel required to support tactical
     infrastructure, based on (1) the evolution and maturation of the program; (2)
     the shift from a high surge, transition activity to a more steady-state activity;
     and (3) the efficiencies derived from reassessment of organizational processes
     and structures. Furthermore, SBI is currently in the process of transitioning
     the Tactical Infrastructure Program Management Office to CBP’s Office of
     Finance, Facilities Management and Engineering Division. The transition is
     planned for March 2009 and SBI will provide a proposed staffing plan and
     organization structure for the office.

     OIG Analysis: We consider CBP’s comments responsive to the
     recommendation, which is resolved and open pending our receipt of the plans
     for the changes to the Tactical Infrastructure Program Management Office:
     staffing, organization structure, task assignments, and milestones. The
     information provided should include the schedule for filling all staffing
     positions responsible for overseeing and ensuring proper administration of all
     tactical infrastructure program management functions.


     CBP’s Comments to Recommendation #4:

     CBP concurred with the recommendation to complete and deploy a tactical
     infrastructure monitoring system and provided a due date of
     December 31, 2009. CBP has been improving features within the Tactical
     Infrastructure Program Office database. It has been in the developmental
     phase throughout the fence construction projects. A Risk Management
     module will also be available in April 2009 and requirements are being
     developed for an Environmental module. Deployment of these two modules
     constitutes completion of the Tactical Infrastructure Program Office system.
     In addition, CBP is working on an Interim Operations and Maintenance
     database that will link to the Tactical Infrastructure Program Office system.
     This interim database is in the early stages of development.

     A program team plans to implement a formal systems lifecycle development
     process for deploying a fully integrated, long-term system solution for the
     program by December 2009.

     OIG Analysis: We consider CBP’s comments responsive to the
     recommendation, which is resolved and open pending CBP’s completion and
     deployment of the Tactical Infrastructure Program Office system modules.




Progress in Addressing Secure Border Initiative Operational Requirements
              and Constructing the Southwest Border Fence

                                Page 23
Appendix A
Purpose, Scope, and Methodology



                    Our audit objective was to determine whether CBP was meeting SBI
                    requirements for constructing fence along the Southwest border as stipulated
                    in the Secure Fence Act, as amended.

                    This is one in a series of reports on the Secure Border Initiative and SBInet
                    program. This audit focused on tactical infrastructure along the Southwest
                    border. The audit scope generally covered pedestrian and vehicle fencing
                    projects on the Southwest border since the inception of SBI in November
                    2005 to September 2008.

                    We toured and physically observed the tactical infrastructure either in place or
                    under construction at five border patrol sectors along the Southwest border.
                    We conducted audit fieldwork at CBP Headquarters in Washington, D.C.,
                    field sites at CBP Border Patrol Sector Headquarters and station offices, and
                    at border sites in the sectors. The sectors visited included El Centro,
                    California; Yuma and Tucson, Arizona; and El Paso and Laredo, Texas.

                    We reviewed CBP task orders, operational requirements and planning
                    documents, and status and monitoring reports. We reviewed prior
                    Government Accountability Office, and Congressional Research Service
                    reports on Border Patrol tactical infrastructure. We participated in discussions
                    with the Government Accountability Office on their related work and attended
                    congressional hearings involving tactical infrastructure and related projects.
                    In addition, we reviewed specific plans, maps, and schedules for construction
                    of tactical infrastructure, showing where pedestrian and vehicle fencing
                    currently exists and when and where future fencing will be constructed.

                    We determined the progress that CBP is making in constructing pedestrian
                    and vehicle fencing and whether it was according to the priorities and
                    timeframes of the Secure Fence Act, as amended. We interviewed CBP
                    managers and personnel; reviewed documents, records, procedures, and
                    controls; and viewed tactical infrastructure. We also reviewed the oversight
                    systems that CBP uses to monitor the construction of fences and barrier
                    projects. We did not test the accuracy and reliability of the systems because
                    of ongoing system testing and time constraints.

                    We conducted this performance audit between September 2007 and July 2008
                    according to generally accepted government auditing standards. Those
                    standards require that we plan and perform the audit to obtain sufficient,
                    appropriate evidence to provide a reasonable basis for our findings and
                    conclusions based on our audit objectives. We believe that the evidence

               Progress in Addressing Secure Border Initiative Operational Requirements
                             and Constructing the Southwest Border Fence

                                               Page 24
Appendix A
Purpose, Scope, and Methodology


                    obtained provides a reasonable basis for our findings and conclusions based
                    on our audit objectives.

                    We would like to extend our appreciation to CBP, and in particular to the
                    Border Patrol, for the cooperation and courtesies extended to our staff during
                    this audit.




               Progress in Addressing Secure Border Initiative Operational Requirements
                             and Constructing the Southwest Border Fence

                                               Page 25
Appendix B
Management Comments to the Draft Report




              Progress in Addressing Secure Border Initiative Operational Requirements
                            and Constructing the Southwest Border Fence

                                              Page 26
Appendix B
Management Comments to the Draft Report




              Progress in Addressing Secure Border Initiative Operational Requirements
                            and Constructing the Southwest Border Fence

                                              Page 27
Appendix B
Management Comments to the Draft Report




              Progress in Addressing Secure Border Initiative Operational Requirements
                            and Constructing the Southwest Border Fence

                                              Page 28
Appendix B
Management Comments to the Draft Report




              Progress in Addressing Secure Border Initiative Operational Requirements
                            and Constructing the Southwest Border Fence

                                              Page 29
Appendix B
Management Comments to the Draft Report




              Progress in Addressing Secure Border Initiative Operational Requirements
                            and Constructing the Southwest Border Fence

                                              Page 30
Appendix C
Major Contributors to the Report



                    Phillip Maulden, Division Director
                    Sam Bellino, Project Manager
                    Aldon Hedman, Auditor-in-Charge
                    Kathleen Hyland, Senior Auditor
                    Maryann Pereira, Senior Auditor
                    Falon Newman-Duckworth, Program Analyst




               Progress in Addressing Secure Border Initiative Operational Requirements
                             and Constructing the Southwest Border Fence

                                               Page 31
Appendix D
Report Distribution



                      Department of Homeland Security

                      Secretary
                      Deputy Secretary
                      Chief of Staff for Operations
                      Chief of Staff for Policy
                      Acting General Counsel
                      Director, GAO/OIG Liaison Office
                      Assistant Secretary for Office of Policy
                      Assistant Secretary for Office of Public Affairs
                      Assistant Secretary for Office of Legislative Affairs

                      U.S. Customs and Border Protection

                      Commissioner
                      CBP Audit Liaison

                      Office of Management and Budget

                      Chief, Homeland Security Branch
                      DHS OIG Budget Examiner

                      Congress

                      Congressional Oversight and Appropriations Committees, as appropriate




               Progress in Addressing Secure Border Initiative Operational Requirements
                             and Constructing the Southwest Border Fence

                                                Page 32
ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this report, please call the Office of Inspector General (OIG) at (202) 254-4199,
fax your request to (202) 254-4305, or visit the OIG web site at www.dhs.gov/oig.


OIG HOTLINE

To report alleged fraud, waste, abuse or mismanagement, or any other kind of criminal or noncriminal
misconduct relative to department programs or operations:

• Call our Hotline at 1-800-323-8603;

• Fax the complaint directly to us at (202) 254-4292;

• Email us at DHSOIGHOTLINE@dhs.gov; or

• Write to us at:
       DHS Office of Inspector General/MAIL STOP 2600,
       Attention: Office of Investigations - Hotline,
       245 Murray Drive, SW, Building 410,
       Washington, DC 20528.


The OIG seeks to protect the identity of each writer and caller.
